<html>
<title> - EXAMINING ENVIRONMENTAL BARRIERS TO INFRASTRUCTURE DEVELOPMENT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


     EXAMINING ENVIRONMENTAL BARRIERS TO INFRASTRUCTURE DEVELOPMENT

=======================================================================

                              JOINT HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON THE INTERIOR,
                        ENERGY, AND ENVIRONMENT

                                AND THE

               SUBCOMMITTTEE ON INTERGOVERNMENTAL AFFAIRS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 1, 2017

                               __________

                            Serial No. 115-1

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                               __________

 

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-084 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7710071837140204031f121b075914181a59">[email&#160;protected]</a>                       
                      
                      
                   
                      
                      
              Committee on Oversight and Government Reform

                     Jason Chaffetz, Utah, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     John Sarbanes, Maryland
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan

                                 ------                                

               Jonathan Skladany, Majority Staff Director
                 David Rapallo, Minority Staff Director
            Ryan Hambleton, Senior Professional Staff Member
                         Kiley Bidelman, Clerk
          Subcommittee on the Interior, Energy and Environment

                    Blake Farenthold, Texas Chairman
Paul A. Gosar, Arizona Vice Chair    Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              (Vacancy)
James Comer, Kentucky                (Vacancy)

                                 ------                                

               Subcommittee on Intergovernmental Affairs

                   Gary J. Palmer, Alabama, Chairman
Glenn Grothman, Wisconsin, Vice      Val Butler Demings, Florida
    Chair                            Mark DeSaulnier, California
John J. Duncan, Jr., Tennessee       (Vacancy)
Trey Gowdy, South Carolina           (Vacancy)
Virginia Foxx, North Carolina        (Vacancy)
Thomas Massie, Kentucky
Mark Walker, North Carolina
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 1, 2017....................................     1

                               WITNESSES

Mr. Richie Beyer, County Engineer, Elmore County, Alabama
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Wayne D'Angelo, Counsel for the Steel Manufacturers 
  Association, Kelley Drye and Warren LLP
    Oral Statement...............................................    16
    Written Statement............................................    18
Mr. Nicolas Loris, Herbert and Joyce Morgan Research Fellow in 
  Energy and Environmental Policy, Institute for Economic Freedom 
  and Opportunity, The Heritage Foundation
    Oral Statement...............................................    23
    Written Statement............................................    25

                                APPENDIX

Statement for the record from Kevin Rames, regarding Amalago Bay 
  Resort, submitted by Ms. Plaskett..............................    58
Statement for the record from Alicia Barnes, Former Commissioner 
  of the Government of the Virgin Islands, Department of Planning 
  and Natural Resources, submitted by Ms. Plaskett...............    62
Questions for the record to Nicolas Loris, submitted by Mr. 
  Farenthold.....................................................    64

 
     EXAMINING ENVIRONMENTAL BARRIERS TO INFRASTRUCTURE DEVELOPMENT

                              ----------                              


                        Wednesday, March 1, 2017

                  House of Representatives,
          Subcommittee on The Interior, Energy and 
            Environment Joint with Subcommittee on 
                         Intergovernmental Affairs,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 10:01 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the Subcommittee on Interior, Energy and the 
Environment] presiding.
    Present: Representatives Farenthold, Palmer, Ross, Duncan, 
Comer, Massie, Plaskett, Demings, and DeSaulnier.
    Mr. Farenthold. Good morning. The Subcommittee on the 
Interior, Energy and Environment and the Subcommittee on 
Intergovernmental Affairs will now come to order. Without 
objection, the chair is authorized to declare a recess at any 
time. The chair notes the presence of our colleagues from the 
full Oversight and Government Reform Committee, and we 
appreciate your interest in this topic and welcome your 
participation today. I'd like to ask unanimous consent that all 
members of the Committee on Oversight and Government Reform be 
allowed to fully participate in today's hearing. Without 
objection, so ordered.
    Well, good morning. Today's Subcommittee on the Interior, 
Energy and Environment, and the Subcommittee on 
Intergovernmental Affairs, will examine Federal impediments to 
infrastructure development. Numerous reports over the last 
decade have documented how burdensome environmental regulations 
have delayed, if not completely derailed, important 
infrastructure projects. Today, we'll explore where these 
regulations have gone wrong in the hopes that we can pinpoint 
solutions that benefit American infrastructure and development.
    Under the Clean Air Act, every 5 years, the Environmental 
Protection Agency is required to evaluate and, if needed, set 
national, ambient air quality standards--and that's called 
NAAQS for those of you who don't speak government vernacular--
to ensure that pollutants are not hurting public health or the 
environment. Currently, in my home State of Texas, we have got 
two regions, Dallas and Fort Worth, that are classified as 
being in nonattainment, which means they don't meet current 
standards for NAAQS.
    Because of this, the State Department of Transportation and 
Metropolitan Planning Organization, located within these two 
regions, are obliged to comply with transportation conformity 
requirements. Failure to do so can result in a loss of Federal 
highway funds for those counties, along with many other issues 
associated with being in nonattainment. Conformity requirements 
entail additional analysis to determine how a potential product 
could impact air quality. These requirements lengthen an 
already significant planning process by a minimum of 6 months, 
and have resulted in cost delays costing over $65 million, just 
in the Dallas-Fort Worth and Houston regions.
    By forcing State and local governments to spend more money 
on burdensome red tape, fewer roads are paved, meaning there is 
fewer construction jobs, and more traffic congestion, which, in 
fact, results in more emissions. In October of 2015, the EPA 
revised NAAQS and lowered the standard for ozone, a recognized 
pollutant, from 75 parts per billion to 70 parts per billion. 
Under this proposed revision, the San Antonio and El Paso 
regions will join Dallas-Fort Worth and Houston in 
nonattainment, costing even more jobs, running up expenses, and 
hindering much-needed infrastructure projects.
    In addition to the nonattainment issues, the National 
Environmental Policy Act, known as NEPA, has become one of the 
most burdensome regulations facing project development in 
America. This law was passed with great intentions almost 50 
years ago but has been expanded by constant tinkering by 
Federal agencies. The time for a full environmental review for 
a highway project has grown from 2 years to over 8 in some 
cases. State and local agencies have to navigate reams of 
Federal regulations in an alphabet soup of Federal agencies, 
all of whom need to sign off on a project under NEPA.
    If they're able to make their way through the process, they 
often get the added joy of a lawsuit from an opponent, often an 
environmental activist group, or a not-in-my-back yard group 
who wants to stall the development, or stop all development. 
While I have addressed highway infrastructure projections, 
rail, airports, pipeline, oil and gas development, and private 
sector development all face similar burdens. We have to find a 
way to stop this paralysis by analysis and get America building 
again while still protecting our environment.
    So that's my opening statement, and I now recognize our 
Ranking Member, Ms. Plaskett, for the Subcommittee on the 
Interior, Energy and Environment, for her opening statement.
    Ms. Plaskett. Thank you very much, Mr. Chairman, and thank 
you for calling today's hearing concerning barriers to 
infrastructure development. And I want to thank our witnesses 
for being here.
    More than most places, my district, the U.S. Virgin 
Islands, understands the importance of striking the balance 
between environmental regulations and development. The Virgin 
Islands are home to just under 107,000 people. With the cost of 
living 33 percent higher than even the District of Columbia's 
outrageous cost of living, every dollar in the local economy is 
crucial to the survival of the citizens of these Islands. This 
is why we cannot afford drawn-out delays in permitting for 
economic development projects. There are many projects in the 
Virgin Islands that have been subject to numerous delays 
through the Federal permitting process. One of those projects 
has been ongoing for the last 10 years with no final decision 
from the Federal Government. A draft biological opinion was 
issued, but it has been 18 months since the last correspondence 
to address the findings in the opinion. This is completely 
unacceptable.
    Tourism is the primary industry for the Islands now. 
Tourism and travel, including the effects of investment, 
account for about 30 percent of the Islands' GDP. Nearly 3 
million tourists come to the Islands every year. Many of the 
tourists come to the Virgin Islands to enjoy our beautiful 
beaches, dive to see the coral, so we understand that 
protecting our natural resolutions and species is crucial to 
the Islands' economy, and we also understand that protecting 
the environment can add time and expense to the completion of a 
project that will employ our citizens, but we must find an 
appropriate balance.
    The U.S. Virgin Islands and other insular territories, 
while not major emission sources of greenhouse gases, and thus 
not contributors to global warming, are experiencing 
exponential adverse impacts of initiatives and regulations to 
remedy those things. While I am mindful that measures should be 
taken to ensure sustainable development, in many instances, 
technocrats within the ranks of Federal agencies approach the 
Virgin Islands and places like us, development permitting and 
other enforcement regulations are done blindly, and simply do 
not take into consideration the socioeconomic implications of 
those actions.
    One of the primary problems to moving projects out of the 
environmental review have been inadequate staffing at the 
National Oceanic and Atmospheric Administration, or NOAA, the 
Federal agency that handles projects having an impact on coral. 
There simply are not enough staff to do the consultations that 
would allow permitting. Currently, the southeast region of the 
United States is one of the fastest growing regions in the 
country. Despite that fact, NOAA only has 14 full-time 
employees handling endangered species-related consulting. The 
West Coast has 150 full-time employees doing the same 
consultation.
    The Governor of the Virgin Islands wrote the White House 
back in August about excessive delays to a hotel being built on 
St. Croix. We have been raising the alarm from the Islands for 
a while now. We are concerned that under President Trump, the 
problem may be exacerbated. President Trump has declared a 
hiring freeze, and so there will be no hiring in permitting 
agencies that are already understaffed. President Trump has 
also announced that he will cut budgets in agencies needed for 
economic development. The hiring freeze and budget cuts to come 
will hurt infrastructure development in the future. For 
example, NOAA recently did a listing in 2015 of 19 additional 
coral species on the endangered species list. This will 
increase permitting time, and the cost for the Army Corps of 
Engineer process.
    I speak for the Virgin Islands regardless of who's in the 
White House. The President has to understand that a hiring 
freeze is going to bring development in the Virgin Islands and 
the whole southeast region of the United States to a screeching 
halt. I hope today we can discuss some sensible solutions to 
these issues. Thank you.
    Mr. Farenthold. Thank you. I'll now recognize Mr. Palmer, 
the chairman of the Subcommittee on Intergovernmental Affairs, 
for his opening statement.
    Mr. Palmer. Thank you, Mr. Chairman, and thanks to the 
witnesses for appearing here today. We're going to hear from 
witnesses who can attest to how the Federal Government is a 
roadblock to States and local communities in infrastructure 
projects, and, hopefully, develop some ways that Congress can 
assist in getting the Federal Government out of the way. And 
States and localities know the needs of their communities. We 
want to increase their ability to handle these projects. They 
should be trusted to use funds to fulfill those needs with the 
least Federal Government interference.
    Many of these environmental regulations have become 
irrelevant, outdated, and abused by groups and organizations 
simply looking to block economic development rather than 
protect the environment. As Chairman Farenthold mentioned, 
examples of environmental regulatory burden are the National 
Environmental Policy Act, NEPA, and the Endangered Species Act.
    Policy uncertainty emanating from Washington discourages 
investment in private infrastructure projects that is a major 
part of President Trump's efforts to rebuild and improve our 
national infrastructure, which will help spur economic growth 
and provide more jobs. Duplicative responsibility between the 
States and Federal Government for planning of federally funded 
projects, many projects require State and Federal officials to 
oversee them when only one is necessary, also helps to drive up 
the cost.
    In 1956, the year the Highway Trust Fund was established, 
total Federal, State, and local expenditures on administration 
and research accounted to 6.8 percent of construction costs. By 
2002, that had risen to 17 percent. And overall, a former head 
of the Federal Highway Administration, Robert Ferris, suggests 
that Federal regulations increase costs by 30 percent. I think 
in some projects in my home State of Alabama, we have seen that 
those costs were doubled. According to one estimate, complying 
with Federal rules raises overhead costs to approximately 25 
percent of project cost, while the overhead costs represent 
only about 5 percent of project costs for locally funded roads 
that do not have to comply with the Federal Rules.
    Compliance with NEPA regulations is complicated and 
involves detailed documentation procedures. If planners do not 
know whether a project will have a significant environmental 
effect, an environmental assessment must be prepared. If the 
assessment finds that a project will have a significant effect 
on the environment, the Federal Highway Administration must 
create an environmental impact statement to document the 
expected effects of any reasonable alternative actions. Because 
they have to meet so many different requirements, many affected 
by NEPA, major highway construction projects take as long as 10 
to 15 years to complete. For example, California's 
transportation corridor agencies have spent the last 15 years 
attempting to comply with Federal environmental review process 
for a toll road under construction. Since NEPA became law, the 
average time required to complete an environmental impact 
statement for a Federal infrastructure project has increased 
from 2 years to more than 8 years.
    The Obama administration recognized the burdensome nature 
of the NEPA process when it exempted 179,000, 179,000, stimulus 
projects from environmental review. The goal, according to 
Secretary of Energy Steven Chu, was to get the money out and 
spent as quickly as possible. What I would add is that these 
regulations, particularly the Endangered Species Act, can serve 
to halt contract projects that have created extensive delays 
and added significant cost increases, especially on projects 
that have already started. We are holding this hearing today as 
part of an effort by Congress to find ways to continue 
protecting our environment while simultaneously encouraging 
infrastructure development and economic growth. I look forward 
to our hearing this morning and how it can play a role in 
beginning to streamline the regulatory process and devolve 
control back to the States. I yield back.
    Mr. Farenthold. Thank you, sir. I'll now recognize Ms. 
Demings, the Ranking Member of the Subcommittee on 
Intergovernmental Affairs, for her opening statement.
    Mrs. Demings. Mr. Chairman, good morning, and thank you so 
much for this hearing today. And to our witnesses, thank you so 
much for being with us.
    I certainly support new projects aimed at repairing the 
Nation's crumbling infrastructure, and expanding the 
infrastructure to meet the needs of the population and the 
modern commerce. There are significant barriers to achieving 
that goal. Inadequate Federal funding for infrastructure is a 
significant barrier. According to the American Society of Civil 
Engineers, $3.6 trillion in new investment is needed to fix the 
Nation's network of bridges, roads, waterways, levies, and 
dams. Inadequate staffing at Federal agencies to process 
development applications is a significant barrier. President 
Trump's hiring ban will worsen backlogged development permit 
applications because vacant positions cannot be filled, and 
more civil servants are approaching the age of retirement. But 
environmental protection laws are not a significant barrier.
    Some opponents of the National Environmental Policy Act, or 
NEPA, say that NEPA is the primary cause of delays. Not so. In 
fact, 95 percent of major actions that are reviewable under 
NEPA are considered to be part of the categorical exclusion, 
which means that they do not require environmental analysis. 
Even with the remaining 5 percent of major projects that 
require additional environmental review, NEPA does not 
constrain the agency if the agency determines that the benefits 
of a particular development project outweigh its environmental 
impacts.
    I, for one, do not want to return to the days before NEPA. 
At that time the public had virtually no input into public 
infrastructure projects, even if it literally ran through their 
backyard. The only considerations for major projects like the 
interstate highway system was whether there was an available 
open space, and whether the acquisition cost was low for that 
space. It did not matter if this available open space was a 
historic site or a public park. It did not even matter whether 
the space was not open in some instances. Often infrastructure 
was built on the backs of the urban poor and minorities. For 
example, a segment of Interstate 4 was constructed directly 
through Parramore, a community on the outskirts of downtown 
Orlando, Florida, and the growing business district.
    Prior to I-4 construction, Parramore was a thriving African 
American community with several successful civic organizations, 
black-owned businesses, including a tailor shop, a theater, and 
several professional offices. Dr. William Monroe Wells, a 
prominent physician, opened a hotel and a South Street casino 
which hosted now legendary jazz and blues performers.
    Unfortunately, the interstate highway that helped make 
Orlando the vacation capital of the United States had 
disastrous consequences for one of central Florida's most 
thriving African American communities. Built along the historic 
Division Street, named for the segregation boundary in postwar 
Orlando, I-4 displaced 551 homes and severed access to downtown 
Orlando. For decades, Parramore struggled to remain a strong 
community. The neighborhood that once boasted more than 10,000 
residents dwindled to 5,200 by 1980, while movie theaters, 
libraries, grocery stores, and community centers closed their 
doors. Fortunately for Parramore, the neighborhoods like it 
across the country, Federal, State, and municipal officials 
understand that communities always do better when those 
impacted have a seat at the table. We do not want to return to 
that past where the Federal Government steamrolls a vibrant 
town into a second thought.
    Thank you so much, Mr. Chairman. I yield back.
    Mr. Farenthold. Thank you very much. And we'll hold the 
record open for 5 legislative days for any member who would 
like to submit a written opening statement.
    We'll now recognize our panel of witnesses. I'm pleased to 
welcome Richie Beyer, County Engineer with Elmore County in 
Alabama; Mr. Wayne D'Angelo is a partner with Kelley, Drye & 
Warren LLP. He serves as counsel for the Steel Manufacturers 
Association and is testifying on their behalf today. And 
finally, Mr. Nicholas Loris. He is the Herbert and Joyce Morgan 
Research Fellow in Energy and Environmental Policy at the 
Institute for Economic Freedom and Opportunity at the Heritage 
Foundation. We had a couple of other witnesses we were trying 
to get. We actually ran up against a couple that were concerned 
that their testimony here might interfere with their company's 
permitting process, which is another issue we might need to 
address at some point. Anyway, to those of you with the courage 
to attend, welcome.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Would you please rise and raise your right 
hand. Do you solely swear or affirm that the testimony you are 
about to give will be the truth, the whole truth and nothing 
but the truth, so help you God?
    Let the record reflect all witnesses answered in the 
affirmative. You all may be seated. In order to allow time for 
discussion, we would appreciate it if you would limit your oral 
testimony to 5 minutes. Your entire written statement will be 
made part of the record, and the members of the panel have 
copies of it.
    So, Mr. Beyer, we'll recognize you for 5 minutes. You've 
got a timer in front of you. The green light will go for 4 
minutes. The yellow light will come on when you have 1 minute 
left, time to start summing up. And the red light means time's 
up. Mr. Beyer, you are recognized for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF RICHIE BEYER

    Mr. Beyer. Chairman Farenthold, Chairman Palmer, Ranking 
Member Plaskett, and Ranking Member Demings, and distinguished 
members of the subcommittees, thank you for holding this 
hearing today. I am honored to testify before you today on 
behalf of the National Association of Counties and the National 
Association of County Engineers. My name is Richie Beyer, and I 
serve as the county engineer for Elmore County, Alabama. Elmore 
County serves a population of approximately 82,000, and is one 
of the fastest growing counties in our State. My experience in 
infrastructure extends not only to Elmore County, but to the 
national level as well, as I am a past president of the 
National Association of County Engineers and currently serve as 
vice chair of the National Association of Counties 
Transportation Steering Committee.
    Elmore County is responsible for 1,000 miles of road and 
127 bridges. Our funding resources, however, are not sufficient 
to maintain our infrastructure, as we operate on about one-
third of the revenue needed. The situation is not unique to 
Elmore County, though. My county shares many similarities with 
counties across the Nation who work every day to stretch the 
taxpayer dollars they are entrusted to manage to ensure their 
effective and efficient use. Counties are innovators, and in 
many cases, do so to survive. The Federal Government can assist 
this innovation by providing a regulatory environment designed 
to empower project delivery, not hampering it. My remarks to 
this committee today will provide recommendations to strengthen 
this effort.
    Currently, counties are required to follow the same 
exhaustive Federal requirements on a small sidewalk or 
preservation project as they would for mega projects, and this 
simply doesn't make sense. Let's take a look at a simple 
resurfacing project in Elmore County where we want to place 1-
1/2 inch wearing surface on a roadway with new traffic stripes 
and markers. Once the contractor completes the project, this is 
what the county will have: a project file 20 times thicker than 
the overlay that was placed; we would have paid on average two 
times the cost of a similar project funded solely with local 
funds; we would have spent 9 to 12 months longer to get the 
project to construction than if it was funded with local funds; 
and we would have a road that is materially the same regardless 
of the funding source.
    Another example, after years of working to secure Federal 
funds for two areas of need in our rapidly growing county, we 
have been working to make intersection and corridor 
improvements at two different locations. The projects will have 
immense safety benefits to the public, yet small impact to the 
few residents adjacent to the improvements. As the project 
start times are separated by one year, we have been in the 
design and environmental approval phase for the two projects 
for 15 and 30 months, respectively. Currently, we are on pace 
to deliver these projects to construction in another 2 years. 
Construction costs for these two projects are small at $1 
million and $3 million, respectively.
    I would like to provide the committee one last example of 
the type of issues these Federal impediments can create. On 
Christmas Day 2015, many Alabama counties, including Elmore 
County, were impacted by torrential rains. A portion of the 
county sustained severe damage that caused the closure of 
several roads. Our largest damage site was on Holley Mill Road 
in the northeast part of the county. A 50-plus-year-old 
drainage structure failed under the immense water pressure. The 
failure created a chasm in the roadway, sending several hundred 
yards of roadbed downstream. Our county team met with State and 
Federal officials within weeks of the disaster, and after 
meeting with them, we were made aware that FEMA was not 
recognizing a provision in the FAST Act exempting emergency 
work from environmental reviews.
    That same day, we contacted Fish and Wildlife and the U.S. 
Corps ourselves. The county received approvals and clearances 
from these two Federal agencies the next day. Despite those 
clearances and approvals though, we were told that our projects 
would still have to go through a full FEMA review. To avoid 
loss of reimbursement, we were forced to immediately halt our 
project, despite the fact that it was vital to restoring 
services to our citizens.
    Thirty days later, we were given approval to move forward 
with our work. So you may be thinking, well, that's fast for 
approvals compared to some of the other environmental horror 
stories that we hear, but the real issue is every day we 
delayed work, our community, our citizens, and our environment 
were negatively impacted.
    These examples point to some of the challenges we face in 
local government, and I offer the following two recommendations 
for ensuring we can provide our citizens the best possible 
services given our limited resources: First, we would like to 
recommend that Congress build on the principles introduced in 
MAP-21 and furthered in the FAST Act by creating an exemption 
from all Federal requirements if the project receives less than 
$5 million in Federal funding. Second, creation of an exemption 
that removes all Federal requirements from emergency repairs to 
any transportation facility damaged by a disaster would 
expedite restoration of services to our citizens, lower the 
cost of repairs, refocus the Federal resources to be available 
to support and assist with recovery efforts, all while being 
accomplished without harm to the environment.
    In closing, counties stand ready to work with our Federal 
partners to achieve our shared goals for strengthening 
transportation networks, improving public safety, and advancing 
our economic competitiveness.
    Thank you again, Mr. Chairman, Ranking Members, and members 
of the subcommittee, for the opportunity to testify today, and 
I will be pleased to answer any questions.
    [Prepared statement of Mr. Beyer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much, and we'll get to the 
questions after everybody has given their testimony. Mr. 
D'Angelo, you're recognized for 5 minutes.


                  STATEMENT OF WAYNE D'ANGELO

    Mr. D'Angelo. Thank you. Thank you, Chairman----
    Mr. Farenthold. You need to get that mic really close to 
your mouth. In our budget consciousness, we got budget mics. 
And turn it on.
    Mr. D'Angelo. There it is. Okay. That's better. We're 
talking with our hands a little bit here, so I apologize if I 
knock the mic. I am very happy to be here. I'm thankful for the 
invite. I have the privilege of testifying on behalf of the 
Steel Manufacturers Association, the leadership of which is 
sitting behind me today. And they have the privilege of 
representing steel mills, which account for over 75 percent of 
domestic steelmaking capacity. SMA members are not just 
steelmakers, they're recyclers. Through the use of electric arc 
furnaces, SMA members make steel from a feed stock of over 90 
percent recycled scrap, millions of tons of scrap that would 
otherwise be disposed of in landfills. So they don't make roads 
or bridges or pipelines, but they will take this Nation's aging 
infrastructure, aging bridges and rebar, and turn it into the 
infrastructure of tomorrow, and that's pretty cool. And I can 
tell you that SMA members, SMA's leadership, and the 60,000 men 
and women that SMA companies directly employ are immensely 
proud of that fact, and that's why I'm here today.
    And I'm here talking about statutes like NEPA and ESA. So 
U.S. steel mills have a list of regulatory requirements that is 
far longer than my arm, and I'm not talking about those. I'm 
talking about NEPA and ESA, two statutes which most 
environmental managers don't have to worry about because steel 
mills are stationary sources and they generally don't have to 
interact with Federal agency action that would implicate those 
statutes.
    And if we think about that, that's kind of a big deal 
because this is an industry that is fighting one heck of a 
fight against international competition, and fighting against 
nations that don't have the environmental health and safety 
controls that we do, and they're not here talking about those 
controls that they're faced with, but those controls, which 
American infrastructure and American government action are 
faced with. And those barriers, we identify as NEPA and the 
ESA, and the reason they are barriers is because we as a Nation 
have chosen to erect them as barriers to infrastructure 
development. NEPA, for instance, started with a very 
commonsense notion that we should look before we leap. We 
should consider the implications of our actions before we take 
those actions, actions like Ms. Demings spoke about. But we 
have sort of lost sight of the underlying purpose of NEPA, and 
that's to get to an action.
    We have heard about all the horror stories, how long it 
takes to get to a final environmental impact statement. These 
environmental impact statements take years and years, cost 
millions of dollars, and are thousands of pages. We have to ask 
ourselves, are we asking questions that are providing the 
answers we need? Or is this the information we need for 
rational, informed decisionmaking? Or are we simply armoring 
ourselves against litigation? Now, some environmental groups 
will cheer this analysis paralysis, but real world 
environmentalists, like Ms. Plaskett talked about, and like my 
clients understand, that you need infrastructure development to 
further environmental protection.
    We have also weighted down our environmental analysis with 
more and more searching analyses that have really protracted 
decisionmaking, and there's no better example of this than the 
ESA. Again, considering the potential impacts on threatened and 
endangered species is a really good idea, and the ESA was a 
great idea for Congress. Now, that made a lot of sense when we 
were dealing with 70 to 80 of the most threatened and iconic 
species in America. It makes a lot less sense when we're 
dealing with 2,400 species and a list that grows every single 
year. How did we get there? It's not because thousands more 
species have been pushed to the brink of extinction in the past 
40 years. It's because a couple of litigious groups have 
learned to game the statute, exploit inflexible deadlines, co-
opt the services listing agenda, and rob the listing services 
of the ability to prioritize species and conservation.
    The listing services, I have some sympathy for them, but 
they've also overreached themselves. They've passed rules just 
this past year with respect to how they designate critical 
habitat. Right? Critical habitat, again, that's an important 
concept that we should consider it, but when we are now 
designating critical habitat where the species has never been, 
and if you put it there, could not now survive, we have ceased 
to ask questions that are relevant to this analysis. Same thing 
with environmental analyses. The ESA requires critical habitat 
be accompanied by an environmental analysis, and yet through 
rule, Fish and Wildlife Service determined that they can up 
sign all of the costs away from critical habitat analyses 
through a bookkeeping trick, and they're free to ignore all 
types of critical--all economic costs in making their 
decisions. They are doing precisely what Congress admonished 
against, and that is, designating critical habitat as far as 
the eye can see, and the mind can conceive.
    Now I recognize here I'm out of time. I just want to make 
one further point. None of this helps conservation. This hurts 
conservation. SMA is proud of their role in furthering 
environmental standards, and I'm glad to answer any questions. 
I appreciate the opportunity to be here today.

    [Prepared statement of Mr. D'Angelo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you, Mr. D'Angelo. Mr. Loris, you're 
recognized for 5 minutes.


                    STATEMENT OF NICK LORIS

    Mr. Loris. Well, thank you and good morning. I want to 
thank the distinguished members of the two subcommittees for 
this opportunity to examine environmental barriers to 
infrastructure development. My name is Nick Loris, and I am the 
Herbert and Joyce Morgan fellow at the Heritage Foundation. The 
views in this testimony I express are my own and should not be 
construed as representing any official position of the Heritage 
Foundation.
    America has a clean, healthy environment, as well as safe, 
high-quality infrastructure. However, we can improve upon both. 
Infrastructure investment and protecting the environment are 
certainly not mutually exclusive. Environmental policies that 
respect the rule of law, protect private property rights, and 
transition power to the States will drive economic growth and 
responsible stewardship. On the contrary, perpetuating the 
status quo, or increasing the Federal Government's regulatory 
overreach hinders infrastructure investment, creates perverse 
incentives, and centralizes power in Washington, all for little 
to no meaningful direct environmental benefit.
    Our country's major environmental policies and regulations 
are long outdated and in dire need of reform. My written 
testimony identifies several environmental roadblocks, and I 
will briefly discuss four of them. As discussed, one major 
roadblock is NEPA, a statute that has evolved to serve as a 
tool to significantly delay and obstruct investment in job 
creation. As we have heard, the average time to complete an 
environmental impact statement for highway projects increased 
from 2.2 years in the 1970s to 8.1 years in 2011. Currently 148 
energy and transit projects are in NEPA review with nearly $230 
billion in stalled investment.
    Some of the major problems with NEPA include differing 
interpretations of NEPA requirements, failed interagency 
coordination or a lead agency, a lack of hard deadlines, 
administrative bottlenecks, and the inclusion of assessing 
manmade climate change's impacts on these projects.
    Reforming NEPA will not compromise public health or safety 
but instead remove duplication and establish a more streamlined 
efficient process. In fact, the Obama administration recognized 
this when effectively waiving NEPA requirements for projects 
funded by the American Recovery and Reinvestment Act. Another 
issue is the social cost of carbon, which allows regulators to 
artificially inflate the environmental cost of a project.
    The Federal Government relies on three statistical models 
to calculate the alleged monetary cost of manmade climate 
change to society, which is defined as the economic damage that 
one ton of carbon dioxide emitted today will cause over the 
next 300 years. Not only is this calculation wasteful in terms 
of time and resources, these models the government uses to 
calculate the SCC are useless for cost benefit analysis and for 
regulatory rulemaking. Subjecting the models to reasonable 
alternative inputs, such as changes to the discount rates and 
equilibrium climate sensitivity, which estimates the warming 
impact of a doubling of CO2 emissions shows just how different 
the results can be. For example, in one of these models, using 
a 7 percent discount rate instead of 3, combined with an 
updated equilibrium climate sensitivity, decreases the social 
cost of carbon by $34 per ton, a 102 percent decrease.
    Furthermore, attempts to forecast economic damages 
centuries into the future significantly strains the credibility 
of these models, but the use of SCC has significant real-world 
policy implications, including for infrastructure development.
    Yet another problem is the EPA's 2015 regulation for ground 
level ozone, where the new standard is so stringent it 
approaches background levels in several areas and will force 
many new areas into nonattainment. These standards would have a 
direct adverse impact on the construction of all types of 
economic activity, including roads and other infrastructure, 
all for diminishing marginal environmental benefits.
    Perhaps most oppressive are the requirements for 
nonattaining regions to offset emission increases with cuts in 
emissions elsewhere, which means potentially redirecting funds 
or canceling infrastructure projects.
    The reality is that national average ozone levels have 
fallen 32 percent since 1980 and are on track to continue to 
decrease. The Federal Government should not continue to move 
the goalposts as States continue to meet the attainments of the 
1997 and 2008 standards. Withdrawing the 2015 standard would 
unlock economic activity at the State and local level, and 
prevent the threat of sanctioned Federal highway funds or other 
penalties.
    Lastly, policymakers should examine and reform 
environmental roadblocks to privately funded energy 
infrastructure investments, not just examine traditional 
infrastructure projects. Federal ownership of land and 
resources, time-consuming leases, permitting and environmental 
review stages needlessly slow energy infrastructure 
development. A few years ago, the U.S. Chamber of Commerce 
compiled a list of 351 energy projects stalled by environmental 
barriers. The authors estimate that the investment phase of 
these projects would generate $577 billion in direct investment 
over a 7-year construction period. And importantly, regulatory 
reform will benefit all energy sources and technologies as 
nearly 40 percent of these projects were renewable energy 
infrastructure.
    In conclusion, antidevelopment regulations serve more as 
tools to protect the desires of special interests than protect 
the environment. Reforming environmental regulations with a 
focus on transitioning authority to the States, creating market 
incentives, and removing costly, ineffective regulations 
entirely will safeguard the environment at a lower cost and 
stimulate infrastructure development of all types.
    Thank you, and I look forward to your questions.
    [Prepared statement of Mr. Loris follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much, Mr. Loris. I'll now 
recognize myself for the first round of questioning for 5 
minutes.
    Mr. Beyer, you're an engineer, and in your testimony, you 
told the testimony of actually having to do a full review of 
just doing a topcoat on an existing road. As an engineer, by 
topcoating that road, you're not taking any more land. You're 
not endangering any more species. I assume the runoff is going 
to be constant whether you've got an inch or two, the road is 
an inch or two higher or an inch or two lower. Is there any 
environmental impact at all? I assume there's got to be some. 
Can you tell me what that sort of change makes?
    Mr. Beyer. Chairman Farenthold, that's a very good 
question, and I believe it was Ranking Member Demings that 
mentioned categorical exclusions in her discussion. And there 
are categorical exclusions for those activities. But even with 
the categorical exclusions, the other oversight that is 
involved to get to the point where you are categorically 
excluded makes that process much more lengthy, and that's when 
I'm referring to the 9 months to 12 months to get that project 
out there. In terms of the environmental impacts, we're 
preserving the road that is there, the impacts that we are 
mitigating by preserving that road, sealing that road up, 
allows for smoother traffic. It allows for shorter trips. It 
takes away from the citizens having damaged vehicles, things of 
that nature, all things that actually would create more 
environmental problems if it wasn't done. That's just one 
example. I'm just trying to show you that a simple project like 
that gets bogged down and then how that translates to the 
larger ones.
    Mr. Farenthold. All right. And you also spoke about some 
infrastructure that was damaged as a result of a natural 
disaster. I assume that the procedures and techniques for 
building a road or a bridge in 2017 are substantially different 
than in the 1950s when maybe some of this infrastructure was 
originally developed. Does replacing infrastructure from the 
'40s or '50s with infrastructure designed to today's technical 
standard using today's technical process actually make them 
more or less environmentally friendly?
    Mr. Beyer. First of all, I will admit that I wasn't around 
in the '50s when those were being built, so from what I've seen 
in my experience, yes, sir, they are much different in the 
construction processes. One of those examples about the 
emergency repairs, though, we're sitting there waiting for 
approvals with a roadway that is wide open that has 20 foot 
embankments going down into a live stream that is carrying silt 
and sediment downstream, and we can't get in there to work 
because we don't get a clearance. So we're actually doing more 
damage to the environment by waiting than we are by going in 
there and doing our actions.
    The other thing is we have got several hundred yards of 
material that we're laying downstream in the channel that we're 
sitting there looking at with the Federal officials, and 
they're all worried about whether or not, with all due respect, 
whether I'm going to hurt a yellow-bellied salamander or 
something like that, and you've got the whole roadway sitting 
down there in the channel. If they were there, they're down 
there with the debris. So realistically, that doesn't make much 
sense to us when we're trying to get services back to our 
citizens, sir.
    Mr. Farenthold. All right. Super. Mr. Loris, you work at 
the think tank, and you study this a lot. There's some concern 
that all these delays would go away if we would just hire more 
people to do the reviews and create a bigger Federal 
bureaucracy to deal with that. Do you think that's the case?
    Mr. Loris. No, I don't think so. In a lot of respects, we 
have tried to do that, and we have seen increasing bottlenecks, 
lack of coordination. I think it fails to address the real 
roots of the problem, which is so much meddling through Federal 
Government and through this alphabet soup of agencies that 
there is a lack of coordination. So I think we need to, in 
fact, go the opposite approach and not hire more Federal 
workers, but devolve a lot of these responsibilities down to 
the State who are more responsive to these things.
    Mr. Farenthold. So as part of the NEPA review process, 
there are a wide variety of Federal agencies that review this. 
Part of the changes that the Transportation Committee made in 
the recent transportation bills is to try to streamline that 
and get some of these reviews going concurrently. Is that 
working, or are we seeing situations where all the agencies but 
one don't like it, and then you've got to go back to square 
one? How is that working----
    Mr. Loris. I think, at most, it's a Band-Aid for a bullet 
hole. It really fails to address, again, these problems that so 
many agencies can still effectively stall, and without real, 
hard deadlines, if you have one agency that's capitulating to 
the needs of a special interest group, or someone who opposes 
the project, it can still delay the project. So I know they 
tried to make reforms in the FAST Act to streamline the NEPA 
process, but it really doesn't address those fundamental needs 
that would go a long way towards reducing those timelines.
    Mr. Farenthold. All right. Well, I see my time has expired. 
I'll now recognize the Ranking Member, Ms. Plaskett, for 5 
minutes of questions.
    Ms. Plaskett. Thank you, Mr. Chairman, and thank you to the 
witnesses again for being here. This is, to me, a really 
important topic. I'm very concerned about impediments to 
communities being able to grow, being able to sustain 
themselves, and recognizing that there has to be a balance. 
Everyone here on this panel agrees on the importance of 
infrastructure. Mr. Beyer, you probably stated it best in your 
testimony when you said finding the balance between regulations 
and reality is key. I agree with that wholeheartedly. The 
economy of the Virgin Islands is heavily reliant on protecting 
its natural resources. For an example, we had, some years ago, 
the EPA, their Petroleum Refinery Initiative mandated that all 
U.S. refineries install best available control technologies, 
BACT--you know, I'm not a scientist, but this is what they tell 
me--to reduce greenhouse gasses emission by 20 percent.
    In the U.S. Virgin Islands, this developed a consent decree 
between the EPA and our then-oil refinery at the time, Hovensa, 
that required the refinery to install a $700 million emissions 
control equipment. Shortly after signing that consent decree, 
Hovensa announced its closure in the Virgin Islands. We had the 
second largest oil refinery in the Western Hemisphere. After 
they left, we, on the island of St. Croix, our unemployment 
skyrocketed to 18 percent. So these are things that are very 
dear to our hearts, we're very concerned about.
    Mr. D'Angelo, you also seem to recognize there is a need 
for a balance, and you testified that the Steel Manufacturers 
Association does not believe we should abandon the deliberative 
process required by NEPA and ESA. Is that correct?
    Mr. D'Angelo. Yes, that's correct.
    Ms. Plaskett. And as someone who's familiar with the 
process, what value does the SMA believe the deliberative 
process should be adding?
    Mr. D'Angelo. Well, I think as Congress intended in 
developing NEPA and the ESA, we want to look before we leap. We 
want to consider our actions, and we want to be able to involve 
stakeholders. But I question what stakeholder is going to be 
involved 8 years down the line and read thousands and thousands 
of pages of EIS, and how are stakeholders helped simply where 
these processes become used as barriers to development, and 
they're used as paperwork exercises as opposed to ways to make 
reasonable, wise, informed decisions that avoid impact, but 
also, let important projects go forward. That's the balance. It 
has less to do with NEPA or ESA. Right? Those were great ideas. 
Those were important ideas, and they were necessary, and 
they're necessary today. The problem is that we got a little 
bit far away from our purpose.
    There was a couple groups that figured out that these are 
really, really powerful tools, and if you don't like 
infrastructure and if you don't want development, then you can 
invoke processes that will mire down any prospect of growth.
    Ms. Plaskett. So right now, and I'm not undervaluing that, 
I believe that there are those in the agencies that that is 
their mandate. One of the other things I'm concerned with in 
some of these agencies, however, is the understaffing, and we 
in the Virgin Islands and many people on the East Coast have 
really experienced that, that they can't move fast enough 
between the projects. I talked in my opening testimony about 
the differences between the West Coast and the East Coast in 
terms of the personnel that's assigned.
    Mr. Beyer, you being part of that southeast region in 
Alabama, do you believe that there are inadequate staffing 
levels in the southeast region which add to the delay in the 
development process?
    Mr. Beyer. I think that the focus is off target, and that 
if their focus was on the larger projects and getting those 
through the process instead of some of the more simple, 
realistic projects that are the bread and butter of State and 
local government, I think that would address a good bit of your 
problem. When they're spending time on the simple examples I 
gave you instead of focusing on the larger capacity projects 
that are impacting communities and things of that nature, I 
think their efforts could be better used there.
    Ms. Plaskett. So even with the shift in those, you think 
that would solve the problem entirely, that there wouldn't 
still be a problem of staffing issues?
    Mr. Beyer. I think it would go a long way to solving that 
problem, yes, ma'am.
    Ms. Plaskett. Okay. I know that in the Virgin Islands, we 
believe that, yes, there is maybe too many hands that are 
involved; the process takes too long. But we have had instances 
as well where I think a large part of the issue for us has been 
that they have not been able to deploy people appropriately to 
the issues, to the projects that we would like to have, and I 
think that that's the thing that we are concerned with, is 
striking that balance between having the process move along 
smoothly, but ensuring that we have the right individuals to 
take that place.
    Thank you, Mr. Chairman.
    Mr. Farenthold. Thank you. I'll now recognize the chairman 
of the Subcommittee on Intergovernmental Affairs, Mr. Palmer, 
for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman. Mr. Beyer, you had 
direct experience in seeing the interaction between Federal and 
local levels of government in that emergency situation with the 
Christmas flood back in 2015. Can you expand on how further 
control can be delegated to the States in the local level in 
both emergency and nonemergency infrastructure development, how 
that would impact your ability to respond?
    Mr. Beyer. Yes, Congressman. Number one, there's a 
duplication of efforts from the Federal and the State levels, 
and that is the most noticeable change that could be made, is 
to shift those responsibilities down. But even further than 
that, there is a lot of this work that occurs in the existing 
right of ways and existing roadways that we have that as, 
especially in Alabama where we have 67 county engineers, 
professional engineers, you know, we're charged with that as a 
responsibility when we get our professional license. We are 
charged to look after the environment, and to make the most 
expedient and efficient use of the taxpayer dollars to protect 
the environment and traveling public. But I don't want you all 
to get it wrong that everybody that we deal with at the Federal 
or State government are problems. We have a lot of good people 
that are out there that help us. That example I gave you about 
the flood, if we didn't have a very good FEMA person on the 
ground with us that helped us navigate through their red tape, 
we would have been longer than those 30 days getting those 
approvals.
    So I think--that's where I see the balance is, you know, 
there are certain things that reach a level where the Federal 
Government should be involved on the oversight of the 
environmental part. But most of the stuff that we deal with on 
a day-to-day basis, or in those disasters, are not something 
that rises to that level. The example I gave you is one of 
those. An example that does rise to that level, when we got hit 
in 2011 with tornados in our State, one of the most massive 
destructive days in our State's history, we had a large amount 
of debris that was dumped in one of the largest and greatest 
reservoirs in our State, Lake Martin, and we had to have the 
Federal help to get that cleaned up. I mean, you had houses and 
debris all scattered through that lake, and we had to rely on 
the Corps of Engineers to help us navigate that. That is one of 
those examples. A 14-foot diameter plate arch pipe going out 
and leaving a 200-foot hole in the ground that we need to get 
back open with water services and sewer and other things that 
were affected, that doesn't really necessarily rise to it, so I 
guess that kind of goes back to the comments about focusing the 
resources in the appropriate manners.
    Mr. Palmer. One of the things that I'm concerned about is 
the cost imposed in terms of road construction, road repair, 
and in your testimony, you made the point that you pay, on 
average, two times of the cost of a similar project funded 
solely with local funds. It's $160,00 per mile for a Federal 
project versus $80,000 per mile for local projects. And we're 
trying to ramp up the infrastructure improvement in the United 
States. And what I want to ask you is, in what ways can the 
regulatory and statutory burdens imposed by the Federal 
Government be reduced so that counties and State projects can 
go forward? How will that help the infrastructure development?
    Mr. Beyer. That's a very good question as well, 
Congressman. I think one of the misnomers in the discussion of 
a categorical exclusion is that that responsibility for 
oversight on that project is pushed down to the State level to 
view the operations of the projects until it's audited. The 
categorical exclusion process clears you through the 
environmental process, but now the State is sitting there with 
all these Federal requirements that they have to ensure are 
met. And by doing that, they add cost to the project, and in a 
lot of cases, they don't understand the outdated reasons for 
the regulations themselves. So you have levels of regulations 
that add to the cost. You mentioned 25 percent being added to 
the cost just in administrative. That is a very good number in 
our State from what we see from our State Department of 
Transportation. Then you also have the levels of you have the 
contractors that are bidding these jobs that add costs to them 
handling the administration of dealing with the regulations as 
well. On average, when we take local bids for our projects, 
those numbers I gave you, $80- to $160,000 are very accurate in 
terms of what we see. Some of it also has to do with the extra 
things we have to do because it has Federal money tied to it 
for a project. That overlay project, there's all sorts of 
things we'll have to do that are ancillary to it that don't 
allow the money to go as far.
    Mr. Palmer. In your written testimony last night, you 
talked about the lack of trust between the Federal Government 
and the local agencies and implied that the people with the 
money don't trust the people down the line that they have the 
capability to handle it. And I think you quoted Ralph Waldo 
Emerson that said distrust is expensive.
    Mr. Beyer. Yes, sir.
    Mr. Palmer. I think that's true. And, Mr. Chairman, I hope 
as we go through this process, this is not an attack against 
Federal agencies. I think we have confidence that the agencies 
can do the job. We also need to transfer that confidence down 
the line to the State and local government and reduce these 
regulatory burdens as much as possible while also protecting 
the environment. I yield back.
    Mr. Farenthold. Thank you very much, Mr. Palmer. I'll now 
recognize Ms. Demings, the Ranking Member of the Subcommittee 
on Intergovernmental Affairs, for her first round of questions.
    Mrs. Demings. Thank you so much, Mr. Chairman. In my 
opening statement, I talked about impact on communities, and 
it's been stated, or suggested, that the Federal Government can 
be a roadblock to economic development in those communities, so 
we're trying to find balance to protect but also to move 
forward. Building America and keeping America moving is 
important. The steelworkers who are here today help to do that. 
But I represent communities. You do, too, as well, Mr. Beyer, 
and so we have to balance the impact to those communities with 
keeping our country moving forward.
    Mr. D'Angelo, you talked about stakeholders, look before 
you leap. When you think about people who have been displaced 
in various communities, who are the stakeholders that should be 
at the table because I think we always do better when we 
include people who are directly impacted in communities in the 
decisionmaking process? Who are the stakeholders and what do 
you really mean by ``look before you leap'' today?
    Mr. D'Angelo. Well, that's a great question. I think the 
stakeholders are the people that are impacted by these 
decisions, and those are the people that are local, that will 
benefit or be hurt by the potential infrastructure projects and 
others. Those that are going to be stakeholders in building 
that, that will provide jobs. I think there's a wide range of 
stakeholders, and I think good decisionmaking requires casting 
the net far and wide with who we talk to, and the kind of input 
the Federal Government receives. And so when I'm talking about 
looking before we leap, we want to have an understanding of the 
impacts, and we want to understand alternatives, right? Are 
there ways we can mitigate an adverse impact? Is there some 
glaring thing that we can identify if we stop, pause, take a 
breath, and say here's how we see this project going. Is there 
a better way to do it, right? But then, we're going to weigh it 
against the benefits of those projects and those stakeholders 
for the benefits. Communities are not benefited when trucks and 
cars are forced to idle in inner cities. If we have ways that 
we can move people more efficiently, if we have ways that we 
can mitigate how much people pay for energy, these are 
considerations as well.
    So that's what I mean by looking forward. It's shocking 
that NEPA came out in 1969, and that was the first time that we 
ever had the thought of doing that. I'm glad we do, but I want 
to rein it in to where it's actually providing information 
that's useful for the decisionmaking.
    I'll give you an example. We do, with greenhouse gasses, 
right, and so, the CEQ came out last year with guidance that 
says we have to examine life cycle analysis of greenhouse gas 
emissions with respect to projects under NEPA analysis, and 
that's all well and good. But there's no project in America 
that is going to change climate change, right? Climate change 
is the input of billions and billions of sources all over the 
world. And so if we are able to assign some number to a 
particular project, a discrete project, and spend lots and lots 
of time doing that, what value is that returning for the 
community, for the stakeholders? I'm glad we look at these 
things, but I just don't know if that is returning the type of 
important information in most of these projects.
    Mrs. Demings. Mr. Loris, in your testimony, you talked 
about how hiring additional personnel actually caused more 
bottleneck, which I find a little strange. Could you give me an 
example of a project where that happened, or some examples of 
that?
    Mr. Loris. Well, I think you can just look at the trends 
and the average timeframe in which these projects failed to get 
through the NEPA process.
    Mrs. Demings. So you're seeing that as a direct result of 
hiring additional staff. I'm trying to understand that.
    Mr. Loris. I think so. I mean, if you have growing 
bureaucracies that fail to address the real roots of the 
problem where you don't have a lead agency, where you're not 
mandating time limits, if anything, it's certainly not helping 
address the problem. Maybe you're perpetuating the status quo, 
but as we have seen even with increases in staff, they've 
failed to address and reduce the frames to move through the 
NEPA process.
    Mrs. Demings. Thank you, Mr. Chairman. I yield back.
    Mr. Farenthold. We'll now recognize the gentleman from 
Florida, Mr. Ross, for 5 minutes.
    Mr. Ross. Thank you, Mr. Chairman. Mr. D'Angelo, I want to 
go straight to you, because you hit on something, and I think 
my colleague, Ms. Demings also talked about it, when you talk 
about the stakeholders. But I think what we're seeing here, and 
I think something very crucial and very important in order to 
maintain the investment that we want to have an infrastructure 
in this country is going to be the cost of capital. The 
stakeholders there that are going to provide the capital 
necessary in order to make that investment to be able to build 
our roads and rebuild our bridges and streamline what it is we 
need to have done. Now the return on investment, and this is 
why it's important that I think that we get this straight under 
NEPA, what's the deadline for completing the permitting process 
under NEPA?
    Mr. D'Angelo. There are no deadlines.
    Mr. Ross. There are none. So if I'm an investor, and I want 
to be able to invest what capital I have to get a return, where 
am I going to put it? Am I going to put it in infrastructure 
subsidies--companies? Or am I going to go somewhere where 
there's a guaranteed return on my investment? So would it not 
be advantageous just for the simple sake of the cost of the 
investment necessary for our infrastructure, to have a 
timeline, a deadline, on the permitting process?
    Mr. D'Angelo. It absolutely would. I mean, these analyses 
will grow to fit whatever timeframe is given. If there's no 
timeframe given, they will grow and grow.
    Mr. Ross. It will perpetuate adversarial involvement, will 
it not?
    Mr. D'Angelo. Correct.
    Mr. Ross. Which leads me to my next question. It has to do 
with sue and settle. And, Mr. Loris, I'm going to ask you about 
this, because you kind of hit on this, lawsuit reform. What's 
there to prevent somebody from just interjecting in the 
permitting process for the mere sake of nothing but to want to 
settle a case? And is that not what we see happening under 
NEPA?
    Mr. Loris. That's exactly right. I honestly don't have too 
much to add to that except for these lawsuits that are supposed 
to be for ordinary citizens that are overtaken by these 
environmental activists organizations who negotiate and settle 
behind closed doors to get to a predetermined outcome without 
really addressing the needs of the public citizens who, in a 
lot of respects, would want these projects.
    Mr. Ross. And in my experience as a litigator, it has been 
that at times my clients would settle for the cost of defense, 
regardless of principle. And I think we're seeing that also in 
NEPA. So how do we address that?
    Let's talk about standing. What standing does somebody have 
other than the fact that they have to be a citizen of the 
United States in order to interject themselves in a lawsuit. Is 
that it?
    Mr. Loris. Largely. And then you have folks, again like the 
Sierra Club who are--you know, that have that standing and the 
taxpayers will fund part of this litigation. And so it's this 
never ending cycle where you have--you know, those are the 
folks who really control the message.
    Mr. Ross. And under the NEPA process right now there's no 
loser pays in the attorney's fees arena, is there?
    Mr. Loris. No.
    Mr. Ross. So would that not give some sense of rationale 
before someone files lawsuit, at least to the extent there may 
be merit to their claim that they should have to bear the cost 
if they lose their suit?
    Mr. Loris. Yeah. There's no real stakeholder input where--
you know, you're effectively giving them all the opportunities 
to get what they want with zero risk.
    Mr. Ross. In the 112th Congress 6 years ago, I filed what 
was then called the RAPID Act. It has been refiled by my 
colleague Tom Marino in the 113th and the 114th Congress. I 
hope that it is refiled again.
    But what it does is it allows for a 4.5 year timeline in 
order to have the permitting process. It allows for 18 months 
for an environmental assessment. It requires that anybody who 
objects do so during this process so that they then have 
standing at the end of the day, and that there's a statute of 
limitations that allows for them to respond within, in order to 
have their complaints.
    My question to you is is this something that would not be 
embraced, not only by environmentalists. Because let's face it, 
if they have an issue, they need to be at the table the sooner 
the better so that issue can be addressed.
    But is it not also something that I think would be 
absolutely necessary in order for those that seek to invest in 
our infrastructure but also those at the county level, at the 
State level and the Federal level who are in the permitting 
process?
    Mr. Loris. Absolutely. The lack of deadlines is a huge 
problem, and allowing or establishing those would give a yes or 
no answer one way or the another. And then you would actually 
have some regulatory certainty. And with so many projects in 
limbo, are being held up by timeless delays. One way or 
another, it should benefit both the economic interests of the 
private producers as well as those environmental activists who 
think these projects shouldn't move forward.
    Mr. Ross. And lastly, Mr. Beyer, is there much duplication 
in the permitting process from one agency, say a State agency 
to a Federal agency in that they are doing the same thing but 
requiring different timelines, although they may have same 
standards?
    Mr. Beyer. Yes, sir.
    Mr. Ross. And would not that duplication, at least being 
resolved, assist in expediting the process?
    Mr. Beyer. Yes, sir.
    Mr. Ross. Thank you and I yield back.
    Mr. Farenthold. Thank you very much.
    We now recognize the gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    And first of all, I want to thank both you and Chairman 
Palmer for calling this very important hearing.
    This is my 29th year in the Congress. During all of that 
time my main committee has been the Transportation and 
Infrastructure Committee and we have tried as hard, as much as 
we possibly could, or as hard as we could to come up with ways 
to accomplish environmental streamlining. It has been the most 
difficult problem that we've worked with.
    During that time, I've chaired three different 
subcommittees of that committee and I will never forget that 
during the 6 years I was chairing the Aviation Subcommittee at 
one hearing we heard the people from the Atlanta airport 
testify that the longest run--the then longest runway at the 
Atlanta airport took 14 years from conception to completion. It 
took only 99 construction days and they did those in 24 hour 
days, around the clock construction so they completed the work 
in 33 days, but it took them 14 years from conception to 
completion. And it was almost entirely environmental rules, and 
regulations and red tape.
    I chaired the Highways and Transit Subcommittee. We had 
hearings and they told--the Federal highway people said they 
had two major studies so they took an average. One study said 
13 years, one study said 15 years, for a new highway 
construction project. And these weren't cross country projects, 
these were six or nine mile projects. And it was all 
environmental stuff.
    I chaired the Water Resources Environment Subcommittee and 
the Maersk SeaLand people came to us at one point and told us 
of a way--they had done a major project at the Norfolk port. 
They worked a deal with all the environmental agencies, because 
they knew it would take so long. They said, let us do your work 
for you and they did. And they completed this project in 7 
years. They said it would have taken probably twice as long if 
they hadn't been able to negotiate that agreement to do all the 
work for those agencies to their satisfaction first.
    The problem was--and I led a congressional delegation in 
Vietnam a few years ago, it was booming. And I asked them, I 
said, you know, I asked them about starting a business over 
there, they said, oh, if you want to start a business over 
there now, you just go out and start it.
    The problem is this, we have more competition--we got so 
far ahead because we had so many socialist and communist 
countries around the world that they actually followed those 
systems for many years and they destroyed their economies. Now 
even some of these former communist countries are allowing a 
lot of free enterprise, free markets in their countries. And 
we've got more competition around the world than we ever had 
before.
    And in most of those countries, especially the Asian 
countries, they are doing these infrastructure projects in a 
third or half the time that we are. We can't keep doing that. 
We have made some progress in some of our more recent highway 
bills and so forth. We are doing better than we were a few 
years ago, but we still have such a long ways to go.
    And I've noticed through the years that all these 
environmental radicals seem to come from very wealthy or very 
upper income families. And I'm not sure they realize how many 
poor and lower income and working people they have harmed by 
causing hundreds of thousands, maybe several million jobs to go 
to other countries and also in driving up the prices and the 
cost of everything that we have in this country.
    And so this is a very, very important project--or topic. 
And we need to do much more to get this under control or this 
country is not going to have the future that we want it to 
have.
    And I appreciate you gentlemen coming here to testify. I 
appreciate this hearing here today. And I thank you very much. 
And I yield back the balance of my time.
    Mr. Farenthold. Thank you, sir. And we'll--seeing nobody 
who has not yet asked questions, we'll start a second round of 
questions and go back--I guess we'll go to Ms. Plaskett since 
we have gone a long time on our side. So you're recognized for 
5 minutes.
    Ms. Plaskett. Thank you. Thank you very much for that.
    What a gentleman you are, Mr. Chairman. I appreciate that.
    Listen, I have been listening to a lot of the testimony and 
I couldn't agree with the vast majority of what has been said. 
Mr. Ross, my colleague across the aisle, I agree with him on a 
lot of the delays that are taking place. I have testimony here 
that I would like unanimous consent to enter into the record. 
One is from Kevin Rames who is a partner and principal of a law 
firm in the Virgin Islands on Saint Croix, discussing one 
particular project, Amalago Bay Resort, Williams and Punch.
    And then the other is from Miss Alicia Barnes who had been 
the former commissioner of the Government of the Virgin 
Islands, Department of Planning and Natural Resources, was the 
director of energy office and is now the managing owner of the 
Rittenhouse Consulting, LLC.
    Mr. Farenthold. Without objection they will be entered into 
the record.
    Ms. Plaskett. Thank you. And both of those testimonies--
thank you, Mr. Chair--speak to what we've been talking about 
here, the difficulties and the processes, the length of time 
that investors who--you know, in the Virgin Islands we are 
competing not with even other American jurisdictions that have 
EPA, that have NOAA, that have National Marine Fisheries and 
Army Corps of Engineers. We are competing with other Caribbean 
islands who don't have anywhere near the types of restrictions 
and environmental protections and such that the United States 
have. And we can't keep up. We can't compete.
    On the one project Amalago Bay resort is to build a project 
on the island of Saint Croix because we haven't had a new hotel 
built on the island of Saint Croix in 30 years. How do you have 
as your major function tourism if you have not been able to 
build a hotel and the one project that you have has taken over 
10 years just in permitting?
    That's mind boggling and it's hurtful to the people of the 
territory. Because while we understand the importance of 
elkhorn coral and others, it provides for our protein, our 
fishes and others. I can't eat coral and my children can't eat 
coral. And the children of the Virgin Islands need employment 
and need something sustainable.
    But another issue that I wanted to talk about and wanted to 
ask you questions about was the notion of the one size fits--
first come, first served basis, one size fits all approach that 
is being done with some of these agencies. Currently projects 
for environmental review are prioritized on a first come, first 
served basis. That means that a small residential dock on Key 
West will come before a large dredging project that would have 
brought millions of dollars and hundreds of jobs to the Virgin 
Islands.
    Mr. Beyer, have you experienced problems getting key 
projects prioritized? And do you have any suggestions for how 
we can assure that crucial projects, that jurisdictions 
identify, can to the front of the line?
    Mr. Beyer. We have experienced times where we have had 
trouble getting responses back and getting an answer back from 
the different Federal agencies. I can't speak to the fact of 
did I get behind a smaller project or a bigger project, but we 
have seen delays in that. And I know that our State DOT 
specifically has actually put money into funding slots at the 
different resource agencies to be able to prioritize our 
project.
    Ms. Plaskett. So you prioritized them at the State level?
    Mr. Beyer. No, I think the Federal agency still prioritizes 
them. What I'm saying is they put in money to pay for a 
resource agent that will----
    Ms. Plaskett. Got you.
    Mr. Beyer. --actually help expedite their projects as they 
come in so that still is only paying for a slot.
    Ms. Plaskett. Right, okay.
    Mr. Beyer. In a State.
    Ms. Plaskett. So what that comes down is to the other 
jurisdictions putting money into the Federal Government too. 
And that doesn't make any sense. We all know that doesn't make 
any sense.
    So, but you know, with the prioritization and they always 
say that, you know, they are taking them one at a time, they 
are working on them, they are pushing them through. They at 
least in our--when I've had phone calls or our governor had 
phone calls they always come back to the fact that they don't 
have enough. I'm concerned, and I know some on our panel may 
not be, that the hiring freeze is going to exacerbate the 
problem.
    I understand that a quarter of NOAA's staff are going to be 
eligible for retirement by 2019. And although we have a culture 
that needs to be changed as well in some of these agencies, and 
the fact that environmental groups may come and exert a lot of 
influence, I can only imagine the backlog that will swell with 
unsustainable proportions if this were the case.
    There's room for improvement in the current process. We're 
hoping that you all can give us some of those answers, 
streamlining the process, prioritizing review of economic 
significance. And more importantly, enabling these agencies to 
serve the public through adequate funding and the staffing. I 
think that this is an area where a hiring freeze would not be 
best for the people and formulaic budget cuts is not the way to 
go in this area.
    But I want to thank you very much, Mr. Chairman, and I 
yield back.
    Mr. Farenthold. Thank you very much. We'll now go to Mr. 
Palmer for his second round of questions.
    Mr. Palmer. Just a few questions, Mr. Chairman. I 
appreciate you allowing us to have a second round.
    Mr. Beyer, on average how long does it take to--do you have 
to wait to ensure that projects are NEPA compliant.
    Mr. Beyer. A simple project like I was talking about with a 
resurfacing and all that, you know, you're taking 6 to 9 months 
to get through that process up to a year.
    The other examples I gave you, we've been at it 12 to 18 
months on those two projects in just the environmental approval 
process, and those are talking about slivers of right away 
around intersections that have little to no impact on species, 
the residents or anything like that to put in needed safety 
improvements.
    Mr. Palmer. The courts have put a hold on the Waters of the 
U.S. rule. And it looks like that's not going to be 
implemented. But under those rules there would have been major 
restrictions on--and new regulations on ditch water. How would 
that have impacted, particularly for rural roads, the cost of 
building or, maintaining, or repairing those roads?
    Mr. Beyer. Well, first of all we are very happy that the 
Waters of the U.S. has been stayed. That would have pretty much 
shut down county government in terms of being able to provide 
citizens the service that they need. I mean, if we have to go 
out there and every time we clean a ditch out we have to go 
through a permit process to do that. And I know they try to say 
they operate under--they operate under permits that are general 
permits, but there's still regulatory involvement there that we 
have to submit documentation on. All that money that we're 
spending is less money that we are putting out there to benefit 
the citizens of our county.
    Mr. Palmer. One other thing that the EPA is doing and that 
the Federal Highway Administration is doing, is imposing 
emissions rules.
    One of the issues was the ozone rule, and is particularly 
problematic for southern States. So, a big problem for us. It 
could have a very negative impact on economic development. One 
of the problems I've got with this is they keep changing the 
goal post and it has a tremendously negative impact on 
planning. For instance, EPA has proposed a new ozone rule, 
which frankly we had a hearing and I questioned Administrator 
McCarthy about it. The technology doesn't exist at the moment 
to achieve this new rule.
    But it was also interesting, I think this was either in 
February or March of 2015 or 2016, I think it was 2015. I also 
asked her when they send the implementation guidelines to the 
States for the 2008 rule and they had just sent them.
    So when you have Federal agencies, EPA, or any other 
agency, imposing these rules and then not sending the 
implementation guidelines, that has to have a very negative 
impact on your ability to plan and to get investments, even 
private sector investments for infrastructure.
    Would you want to comment on that?
    Mr. Beyer. Yes, sir, I will. The last round of ozone 
requirements did not touch our metropolitan planning 
organization, but we were borderline with that. And it would 
have had extreme impacts on the way that we were able to plan, 
whether it was on the transit side or whether it was on the 
highway side. And we were fortune enough we didn't get impacted 
by them, but you're exactly right, the way that the 
documentation and the guidance was put out there, it was very 
problematic, it caused a lot of discernment for a year or so in 
the planning process as we were going through the development 
of our TIP.
    And so yes, sir, you're exactly right, it's very 
problematic for that to occur.
    Mr. Palmer. Well, I appreciate again the witnesses being 
here and Chairman Farenthold's willingness to hold this hearing 
as a joint subcommittee and I yield back.
    Mr. D'Angelo. Mr. Palmer, if I could speak very quickly on 
the NAAQS issue as well, stationary sources, the Clean Air Act 
is one of the major drivers of regulatory costs for steel 
mills. And the new ozone standard has been set to a level that 
is near background levels. And we know, EPA has the data, that 
there's been non attainment in the West and in other places by 
virtue of emissions, from my industry's competing mills in 
China and elsewhere. And----
    Mr. Palmer. Since Mr. D'Angelo brought that up I'll share 
something else with you from that hearing that we had with 
Administrator McCarthy.
    I asked her if it was true that they had just earlier that 
year sent the implementation guidelines to the States on the 
new ozone rule? And she said, yes. I said, is it also true that 
there is an internal memo in EPA that indicates that if we 
don't implement the 2015 rule we will be in full compliance in 
10 years and she said, yes.
    And I take note of the fact that not only are our foreign 
competitors dumping their steel products into the United 
States, they are also dumping their pollution.
    I yield back.
    Mr. Farenthold. Thank you very much.
    We'll now recognize the ranking member Mrs. Demings for 5 
minutes.
    Mrs. Demings. Thank you so much, Mr. Chairman.
    Mr. Beyer, you're here representing the National 
Association of Counties. And I believe your county is Elmore 
County in Alabama. I believe you said it is 82,000, the fastest 
growing county in your State. Is that correct?
    Mr. Beyer. Yes, it is one of the faster growing counties.
    Mrs. Demings. One of the fastest. Go ahead and take the 
fastest growing.
    Would you say that you probably know your county, and the 
citizens in your county know the local area, better than the 
Federal Government?
    Mr. Beyer. Yes, ma'am.
    Mrs. Demings. And do you agree that local communities 
should have, I mean as a person who is representing a local 
community know the needs of that community, know the people, do 
you believe that your local community should have a say, just 
as I asked Mr. D'Angelo, in those local projects and what 
happens and what does not happen?
    Mr. Beyer. Absolutely, absolutely. We are the closest 
government to the people. We can't do anything in our life 
without being talked to about the road conditions or the 
condition of the environment. So yes, ma'am between the staff 
and the County commissions, they are closest to the people and 
they have a good insight.
    Your example about the interstate, that was one thing that 
I hoping I would get to circle back to, the question.
    The local government, you know, we desire that involvement 
to make sure that we are part of the that process and the 
planning, so when DOTs and the Federal Government are looking 
at major projects that effect communities we want to be at the 
table to help to make sure all the solutions are there on the 
table.
    And I think that is something the national associations 
have put more on the forefront, but I think we would like to 
see more and more of that to where the local government gets 
the citizens involved and I think that takes care of a lot of 
the issues that we're here to talk about today.
    Mrs. Demings. You know for someone who has worked in local 
government myself, I know how important it is to get those 
projects done, to serve the people in the most expeditious 
manner that you can.
    But NEPA was created to permit views of local citizens to 
shape the development of their community and environment. Not 
having deadlines is--that's another subject for another day. 
But what role do you believe, looking at the needs of your 
local community and how it impacts the citizens that you serve, 
what role should NEPA play?
    Mr. Beyer. In my opinion I think NEPA plays a role in the 
development of those new corridors. I think NEPA developed--
should be at play when we are talking about major impacts to 
people. I mean if you're getting a sliver of land here and 
there, I don't think that is where the intent of that is.
    Now the example you gave with the interstate, I think that 
is exactly where NEPA is intended for. If the County was to go 
out and put in a 5 mile brand new road and we were going to 
impact residences and we were going to impact streams and all 
that, there is a role for it there.
    But I believe a couple of the other witnesses here talked 
about how the role's expanded to where everything is under a 
microscope. And instead of focusing those resources on those 
major impacts, now we're on to every little thing that a 
Federal dollar touches.
    And that, I think, if we can leave you with a message 
today, that's what I'd like to leave you with. There's places 
where you don't need that. There's professionals in place to 
handle that in dealing directly with the community. But you're 
exactly right about the major communities and major projects.
    And there's some comments about staffing. I think the 
staffing again, if their focus was on those major projects, 
instead of a small blue line creek in the northeast part of my 
county, that has a couple hundred vehicles a day on it, but at 
the same time it has major utilities running through there, if 
their focus was on the northern belt line in Birmingham or 
their focus was on the I-10 corridor in the south part of our 
State, we'd get things moving along.
    Instead they are worried about whether or not, as I said--
and I wasn't very very eloquent when I said it--they are 
worried whether I'm going to bother some little species that 
may or may not be there in my channel. Or whether I put a rock 
or two of rip rap in a channel that they deem as being waters 
of the United States.
    There's a focus problem there. If the focus was right, 
exactly what you said earlier would have been much better 
handled in terms of how that community was impacted.
    So I don't know if I answered your question.
    Mrs. Demings. You did, Mr. Beyer. Thank you so much. And 
thank you to all of the witness who are here today. Mr. Loris?
    Mr. Loris. Yeah, could I just make one comment? I 
completely echo that sentiment. I think communities should have 
say in these projects and they are in the best position to do 
so rather than folks in Washington. I think folks in the Virgin 
Islands better know the economic and environmental desires 
better than folks in Washington.
    And so having more priorities, you know. That are limited 
in scope at the national level, but activities that can be best 
managed at the State and local level, will go a long way to 
alleviating some of these problems.
    Mrs. Demings. Thank you so much. I yield back, Mr. Chair.
    Mr. Farenthold. Thank you very much. And I have just got a 
couple of short questions that I want to wrap up with and 
follow up on. I think Mr. Ross talked a little bit about sue 
and settle and loser pays. It's not necessarily loser pays, 
it's taxpayer pays in most of these cases.
    Correct me if I am wrong, Mr. Loris, the way this is set 
up, any environmental activist group can sue under, pick the 
statute that we've been talking about today, to either delay a 
project or get a species and list it on the endangered species 
act, you name it. And then without going to trial, without a 
judge making any decision at all, they can go in and negotiate 
with the regulatory agency and say, all right, we sued you, if 
you will--we'll use Endangered Species Act, list this animal on 
the Endangered Species Act and pay our attorneys' fees, we're 
going to go away.
    There may be really no adversarial process in there, and 
there may be no judge who actually interprets the law and makes 
a decision. It's just settled between two groups that may have 
almost identical interests and it's entirely funded by the 
taxpayer and goes--and skirts the normal regulatory process of 
public comments and hearings and everything. It's basically 
done behind closed doors. Is that an accurate representation of 
what happens?
    Mr. Loris. Yeah, that's correct. And you're leaving out 
those community stakeholders too who may have an interest 
seeing these projects move forward, they may not, but they are 
left in the dust as well.
    Mr. Farenthold. So what would your solution to that be?
    Mr. Loris. Well, there's a few. I think one is Congress 
needs to reassert its authority in a lot of these major 
environmental regulations and statutes. I think for too long, 
too much authority has been ceded to these agencies who can--
where now we are relying on unelected bureaucrats to make these 
decisions and to make these backroom deals.
    So I think there's a lot that can be done, you know, 
clarifying who should have legal standing, requiring bond so 
that taxpayers aren't on the hook to pay for these lawsuits are 
just two simple reforms that could go a long way in making sure 
that it's not these environmental organizations who are 
antidevelopment, keep it in the ground, are the ones making the 
decisions with the regulators.
    Mr. Farenthold. Thank you very much. And Mr. D'Angelo, it 
is a little outside the scope of what we're doing here, but you 
touched a little bit about the environmental regulations that 
effect your clients building of new plants and operation of 
existing plants.
    There is a big dialogue now going on in our government 
about bringing jobs back to the United States, making us 
competitive again. How do our environmental regulations compare 
with the rest of the world? I assume that we're easier to deal 
with in some areas and far harder to deal with in other areas.
    Where would you say we are and where do we get the biggest 
bang for the buck repairing it where we continue to protect the 
environment but bring jobs to the United States?
    Mr. D'Angelo. Thank you, chairman. That's a great question. 
The steel industry is one of the most heavily regulated 
industries in the world. A lot of the--the majority of the cost 
comes from the Clean Air Act. So they are--steel mills are 
regulated both as an individual source and because of where 
they are, through National Ambient Air Quality Standards. 
States play a role with that. Federal Government plays a role. 
There's even local impacts.
    To ask how our environmental health and safety regulations 
compare to those in other countries primarily where the steel 
industry competitors lie, it's not an overstatement to say that 
there is no comparison. The steel we make here is made in the 
most clean, sustainable way. And if you care about climate 
change, you care about making your steel here as opposed to a 
factory in some other country that doesn't have these controls, 
putting it on a ship and covering it in diesel to get it all 
the way across the planet to be used in our infrastructure 
projects. The best and cleanest steel and most heavily 
regulated steel comes from right here.
    I would also like--if I could have an indulgence, talk 
about the ESA sue and settle because I worked on some of these. 
It is not hard how these groups do it. There's two in 
particular, Center for Biological Diversity and WildEarth 
Guardians. They know that the ESA has an inflexible deadline, 
after you file a petition the clock starts.
    In 12 months if the agency has not responded to that 
petition, they have a lawsuit. Twelve months, means 12 months. 
Every court in the Nation has said that. It's not one of these 
issues where agencies get discretion, because you can't 
interpret it any other way, and so they lose every single time. 
And so when one of the cases comes up, they sit down with their 
lawyer, in this case DOJ. And DOJ says they got you dead to 
rights and so they give it away. And who walks away? Two 
organizations walk away with all--with the listening agenda. 
They pick exactly what species come and what order they go in. 
And those species are not ranked according to proximity to 
extinction or risk. They are ranked according to wholly 
distinct, policy priorities of two organizations. These are not 
people in our communities.
    Ms. Plaskett, I am familiar with many of the coral issues. 
Center for Biological Diversity filed a petition to list, one 
single petition to list 82 separate species of corals. Now you 
can imagine the lack of rigger with one petition going to 82 
species. And the National Marine Fisheries Service decided to 
list many of those. The discussion of which is mere paragraphs 
for any individual corals, right.
    And Ms. Plaskett, I have heard her speak on that. She's an 
advocate--she shows what the real world impacts are, what the 
real folks in her community-- And I think it's sad. The 12 
month deadline made sense until organizations started gaming 
it. And that doesn't help in any way and it doesn't help 
conversation--conservation, excuse me. Listing everything under 
the sun is not going to help conservation.
    It is putting something on a list. There's been this aura 
built around it, but it doesn't do anything. We need to 
actually fund conservation, and we're not letting our services 
do that.
    Mr. Farenthold. Thank you. And I think Mr. Palmer has one 
more question. Did you all have anything else you wanted 
before--Mr. Palmer, I'll recognize you to wrap it up.
    Mr. Palmer. Thank you, Mr. Chairman. I just really have a 
statement in regards to something that you brought up, and Mr. 
Loris responded to, and that's the problem with sue and 
settlement and dissent decrees and continuing to expand the 
universe, as you pointed out Mr. D'Angelo, if Federal agency, 
if they are sued, if they litigate the case and they get a 
judgment, the judgment is limited to the remedy for the 
problem.
    But if we enter into a consent decree or--as we do with the 
sue and settle cases, the judge appoints a special master or a 
control group and they determine whether or not the remedy has 
ever been achieved and those can go on for years.
    So I think it's something that would warrant further 
consideration, Mr. Chairman, and look forward to working with 
you and others on these issues.
    I really think it has been a good hearing. And again, I 
want to thank the witnesses for their participation. I yield 
back.
    Mr. Farenthold. Thank you very much. And I too would like 
to thank you all for being here and your testimony.
    I would like to ask for unanimous consent that members have 
5 legislative days to submit questions for the record. And 
without objection that's so ordered.
    If there's no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 11:32 a.m., the subcommittees were 
adjourned.]

                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
